CERTIFICATE OF COMPLIANCE
Case No.
Caption: EMW Women's Surgical Center v. Meier
As required by Supreme Court Rule 33.l(h),
I certify that the document contains 7,856 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 25, 2019.

Samantha Collins
Record Press, Inc.

Sworn to before me on
September 25, 2019
RAMIRO A. HONEYWELL
Notary Puhr , State of New York
No. 1H06118731

